                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: AII030020                                                                       Page 1 of 1



                  NSF OIG received an allegation that a companyl received SBIR funding from both NSF
          and HHS to develop the same technology. We reviewed the NSF Phase I and Phase II proposals2
          and the NIH Phase I and Phase II proposals3 and did not find the proposals to be identical or
          significantly similar in language. Additionally, NSF and NIH documents indicated that the issue
          of overlap in research had been raised by both NSF and NIH program officers and addressed
          satisfactorily before funding was granted.

                   Our review however indicated that the PIs4 did not accurately complete the proposals'
          Current and Pending Support (C&PS) forms. We contacted the PIs. In their response, they said
          their understanding was that the C&PS form required reporting awarded or pending proposals
          "that overlap with the project period of performance of the proposal being submitted." They said
          that "all C&PS' s have been 100% accurate and consistent within the context of our
          understanding above."

                  Our review of the language in the Grant Proposal Guide at the time of the proposals'
          submission as well as the current language in the Proposal and Award Policies and Procedures
          Guide require that all current projects, whether they overlap with the period of performance of
          the proposal being submitted or not, be included on the C&PS form.

                  We generated Questionable Administrative Practice letters to the PIs reiterating the need
          to provide accurate and complete information on their C&PS forms.

                    Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
